WAIVER

SUPREME COURT OF THE UNITED STATES

No. 20-1696

Jeriel Edwards Steven Harmon, et al.
(Petitioner) Vv. (Respondent)

IDO NOT INTEND TO FILE A RESPONSE to the petition for a writ of certiorari unless one is requested by
the Court.

Please check the appropriate box:
© lam filing this waiver on behalf of all respondents.

Oo Tonly represent some respondents. I am filing this waiver on behalf of the following respondent(s):

Please check the appropriate box:

© Jam a member of the Bar of the Supreme Court of the United States. (Filing Instructions: File a
signed Waiver in the Supreme Court Electronic Filing System. The system will prompt you to enter
your appearance first.)

oO 1am not presently a member of the Bar of this Court. Should a response be requested, the response
will be filed by a Bar member. (Filing Instructions: Mail the original signed form to: Supreme Court,
Attn: Clerk's Office, 1 Fi St eet, NE, Washington, D.C. 20543).

ZZ)

  
   

Signature:
Date:
(Type or print) Name Anthony Joseph Ferate

© wr. O Ms. O Mrs. O Miss

Firm Spencer Fane LLP

Address 9400 North Broadway Extension, Suite 600

City & State | Oklahoma City, OK Zip 73114
Phone 405-753-5939 Email ajferate@spencerfane.com

A copy of this form must be sent to petitioner's counsel or to petitioner if pro se. Please indicate below the
name(s) of the recipient(s) of a copy of this form. No additional certificate of service or cover letter is required.

Erin Glenn Busby

University of Texas School of Law
727 East Dean Keeton St.

Austin, TX 78705
